No.
IN THE

Supreme Court of the United States
MICHAEL COWELS AND MICHAEL MIMS,
Petitioners,
v.
THE FEDERAL BUREAU OF INVESTIGATION,
CHRISTOPHER WRAY, AND PAULA WULFF,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
PETITION FOR A WRIT OF CERTIORARI

ELLIOT M. WEINSTEIN
83 ATLANTIC AVENUE
BOSTON, MA, 02110
(617) 367-9334
elliot@eweinsteinlaw.com

December 20, 2019

DAVID J. APFEL
Counsel of Record
DYLAN SCHWEERS
GABRIEL I. ROSSMAN
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
(617) 570-1000
dapfel@goodwinlaw.com
EZEKIEL L. HILL
GOODWIN PROCTER LLP
1900 N. STREET NW
WASHINGTON, DC 20036

Counsel for Petitioners

QUESTIONS PRESENTED
The questions presented are as follows:
1. Whether a determination by the Federal Bureau
of Investigation (the “FBI”) that a DNA profile is ineligible for upload to the National DNA Index System
(“NDIS”) – the nationwide database of DNA profiles –
is arbitrary and capricious and must be set aside pursuant to the Administrative Procedure Act where the
determination fails to consider the source of the DNA
profile.
2. Whether a determination by the FBI that a DNA
profile is ineligible for upload to NDIS must be remanded as pretextual where the determination is not
based on the FBI’s independent review of relevant
information but rather is based on limited information provided by an entity seeking a determination
of ineligible.

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the
cover page.

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED...................................... i
PARTIES TO THE PROCEEDING ......................... ii
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
STATUTORY PROVISION INVOLVED ................. 1
INTRODUCTION ..................................................... 2
STATEMENT ........................................................... 6
A.

Petitioners Were Convicted Of The 1993
Murder Of Ms. Miscioscia. .......................... 6

B.

The
SJC
Vacated
Petitioners’
Convictions
After
DNA
Testing
Demonstrated That The Key Physical
Evidence
Upon
Which
The
Commonwealth Relied At Trial Was Not
Linked To Petitioners Or Ms. Miscioscia. .. 6

C.

DNA Testing Of Seminal Fluid From
Inside A Used Condom Found Next To
Ms. Miscioscia’s Body Obtained An
Unknown Male DNA Profile. ...................... 7

iii

D.

The State Trial Court Ordered The
Commonwealth To Upload The Profile
To CODIS. .................................................... 8

E.

The FBI Determined That The Profile
Was Ineligible For Upload To NDIS. .......... 9

F.

Proceedings Below. .................................... 11

REASONS FOR GRANTING THE WRIT ............. 13
I.

The Decision Below Is Contrary To This
Court’s Precedent. ............................................ 13
A.

The First Circuit’s Decision Is Contrary
To This Court’s Precedent Regarding
Arbitrary And Capricious Agency
Determinations. ......................................... 13

B.

The First Circuit’s Decision is Contrary
to This Court’s Precedent Regarding
Agency Determinations Resting On A
Pretextual Basis. ....................................... 15

II. This Case Is An Appropriate Vehicle To
Address
The
Important
Questions
Presented.......................................................... 18
CONCLUSION ....................................................... 20
APPENDIX A: Court of Appeals Decision ............. 1a
APPENDIX B: District Court Decision…………..15a
iv

APPENDIX C: FBI Ineligibility Determination..30a

v

TABLE OF AUTHORITIES
Cases

Page(s)

Dep’t of Commerce v. New York,
139 S. Ct. 2551 (2019) ....................... 5, 16, 17, 18
Judulang v. Holder,
565 U.S. 42 (2011) ....................................... 13, 15
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983) ............................. 4, 13, 14, 15
Statutes
5 U.S.C. § 706(2)(A) ............................................... 13
28 U.S.C. § 1254(1) ................................................... 1
34 U.S.C. § 12591 et seq. ......................................... 11
34 U.S.C. § 12592(b)(3)(c) ....................................... 18
Other Authorities
146 Cong. Rec. H8572–01 (daily ed. Oct. 2,
2000) (statement of Rep. Canady) .................... 18
FBI, CODIS-NDIS Statistics,
https://www.fbi.gov/services/laboratory/bi
ometric-analysis/codis/ndis-statistics
(last accessed December 20, 2019) ...................... 8
vi

PETITION FOR A WRIT OF CERTIORARI
________________________
Petitioners Michael Cowels and Michael Mims respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the First Circuit.
OPINIONS BELOW
The opinion of the court of appeals, Pet. App. 1a14a, is reported at 936 F.3d 62. The opinion of the
district court, Pet. App. 15a-29a, is reported at 327 F.
Supp. 3d 242.
JURISDICTION
The court of appeals entered its judgment on August 26, 2019. On November 8, 2019, Justice Breyer
extended the time for filing this petition to and including December 20, 2019. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
Section 706(2)(A) of the Administrative Procedure
Act (5 U.S.C. § 706(2)(A)) provides:
The reviewing court shall-(2) hold unlawful and set aside agency action, findings, and conclusions found to be-(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with
law . . . .

2
INTRODUCTION
Petitioners spent more than 20 years behind bars
for the 1993 murder of Belinda Miscioscia. Postconviction DNA testing on the key piece of physical
evidence that the Commonwealth of Massachusetts
used to secure their convictions, however, demonstrated that the evidence was actually exculpatory,
as the blood on the evidence was not that of Petitioners or Ms. Miscioscia. Based on the results of that
DNA testing, in 2015 the Massachusetts Supreme
Judicial Court (the “SJC”) vacated Petitioners’ convictions and remanded for a new trial.
In preparing for the new trial, the Commonwealth,
on its own initiative, performed DNA testing on additional physical evidence, including on swabs of seminal fluid (the “Swabs”) from inside a condom that
was found next to Ms. Miscioscia’s body at the crime
scene (the “Condom”). The DNA testing of the Swabs
obtained the DNA profile of an unknown male (the
“Profile”) that does not match either Petitioner.
Believing that the Profile could be that of the perpetrator of Ms. Miscioscia’s murder, Petitioners
sought to have it uploaded to the Combined DNA Index System (“CODIS”) for comparison purposes.
CODIS is a DNA profile database that operates at
the local, state, and national levels. Participating
states, such as the Commonwealth, administer the
state level of CODIS, known as the State DNA Index
System (“SDIS”). The Federal Bureau of Investigation (the “FBI”) administers the national level of
CODIS, known as the National DNA Index System

3
(“NDIS”), which contains vastly more DNA profiles
than any of the state-level databases
The Commonwealth initially refused Petitioners’
request to upload the Profile to CODIS. Over the
Commonwealth’s objections, however, a state court
ordered the Commonwealth to upload the Profile to
CODIS and the Commonwealth did so but no match
was found. The Commonwealth then refused to request that the FBI accept the Profile for upload to
NDIS but eventually agreed to do so in light of the
state court order.
In making the request, however, the Commonwealth failed to provide the FBI with critical relevant material regarding the Profile. Instead, the
Commonwealth biased the FBI’s response to the request by providing limited material that did not include documentary evidence indicating that the Profile was obtained from DNA testing of swabs taken of
seminal fluid inside the Condom. And in making the
request, the Commonwealth asserted that the Profile
was ineligible for upload to NDIS.
The FBI in turn concluded that the Profile was ineligible for upload to NDIS. The FBI’s written explanation for the ineligibility determination reveals
the FBI’s flawed understanding of the record before
it. The FBI reasoned that “[t]here is no indication in
the material[s] provided that the condom was forensically connected to the victim (no alleles, partial or
full profile[,] reported as would be expected had the
condom come in contact with the victim.)” Pet. App.
30a. The FBI concluded that “it does not appear that
there is a forensic nexus between Ms. Belinda Misci-

4
oscia and the condom to establish a putative perpetrator for the crime,” which is an eligibility requirement for the Profile to be uploaded to NDIS pursuant
to the FBI’s National DNA Index System (NDIS) Operational Procedures Manual (the “NDIS Manual”).
Id. at 31a. But, of course, DNA testing of the Swabs
could not have revealed whether the Condom came
into contact with Ms. Miscioscia or otherwise revealed a nexus to her because the Swabs were of
seminal fluid found inside of the Condom. The FBI
simply misunderstood the source of the Profile that it
was being asked to upload. It mistakenly believed
that the outside of the Condom, which has never
been tested for DNA, was the source. Because it reflects a fundamental misunderstanding of the record,
the FBI’s ineligibility determination was arbitrary
and capricious and should be set aside pursuant to
the Administrative Procedure Act (the “APA”). See
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29 (1983). The First
Circuit failed to do so.
The FBI’s ineligibility determination was also pretextual. It was not based on the FBI’s independent
review of relevant information but was instead based
on limited materials provided by the Commonwealth,
which sought a determination of ineligible. Importantly, the materials that the Commonwealth
provided to the FBI did not include documentary evidence indicating that the Profile was obtained from
DNA testing of swabs taken of seminal fluid inside
the Condom. Furthermore, the Commonwealth did
not inform the FBI that the Commonwealth had
viewed the Condom as evidence connected to Ms.

5
Miscioscia’s murder from the time it was collected at
the crime scene in 1993 until DNA testing in 2015
confirmed that the Condom was not linked to Petitioners. Rather than conduct its own independent
investigation, the FBI accepted the truncated and
biased record that the Commonwealth provided at
face value and reached the conclusion urged by the
Commonwealth. The FBI’s ineligibility determination, which did not disclose the FBI’s blind acceptance of a contrived and incomplete record designed to reach a predetermined outcome, was pretextual and should therefore be remanded to the
FBI. See Dep’t of Commerce v. New York, 139 S. Ct.
2551 (2019). The First Circuit failed to do so.
The questions presented by this petition matter
not only to Petitioners but to all current and future
criminal defendants in whose cases an unknown
DNA profile is obtained. NDIS, which was created to
serve both law enforcement and criminal defendants,
is the most powerful tool available for matching an
unknown DNA profile to a known individual. In determining what profiles are eligible for upload to
NDIS, the FBI is also determining which criminal
defendants will benefit from this tool. Ensuring that
the FBI applies the standards set by the NDIS Manual in a manner that is not arbitrary and capricious,
and that the FBI explains its determinations in a
manner that is not pretextual, is essential for NDIS
to serve its intended purposes. Absent meaningful
judicial review, the FBI’s discretion in making such
determinations will go unchecked.

6
STATEMENT
A.

Petitioners Were Convicted Of The 1993
Murder Of Ms. Miscioscia.

In 1993, Ms. Miscioscia’s body was found behind a
woodworking shop in Chelsea, Massachusetts. Pet.
App. 4a. In 1994, Petitioners were tried and convicted for her murder and sentenced to life imprisonment. Id. at 5a. Petitioners have steadfastly maintained their innocence.
B.

The SJC Vacated Petitioners’ Convictions
After DNA Testing Demonstrated That
The Key Physical Evidence Upon Which
The Commonwealth Relied At Trial Was
Not
Linked
To
Petitioners
Or
Ms. Miscioscia.

In February 2015, the SJC vacated Petitioners’
convictions and remanded their cases for a new trial.
Pet. App. 5a. Post-conviction DNA testing had proven that blood found on a towel that Petitioners supposedly used to clean up after the murder – the key
physical evidence the Commonwealth presented at
trial – did not come from Petitioners or Ms. Miscioscia. Id. By the time the SJC vacated their convictions, Petitioners had each spent more than twenty
years behind bars.

7
C.

DNA Testing Of Seminal Fluid From
Inside A Used Condom Found Next To
Ms. Miscioscia’s Body Obtained An
Unknown Male DNA Profile.

At the 1993 crime scene, the Massachusetts State
Police found the Condom next to Ms. Miscioscia’s
body. Pet. App. 4a-5a. The State Police collected
and retained the Condom as evidence, tested it for
hair and fiber, and took swabs of the inside of the
Condom to test for the presence of seminal fluid,
which was detected. Id. The State Police did not at
that time conduct DNA testing (which was then in
its infancy) of the Condom or the Swabs. Id. at 5a.
After the SJC vacated Petitioners’ 1994 convictions, the Commonwealth began preparations for Petitioners’ retrial. These preparations included performing DNA testing on additional physical evidence,
including the Swabs. Pet. App. 5a. The Commonwealth apparently believed that DNA testing of the
Swabs—which contained seminal fluid taken from
inside the Condom found next to Ms. Miscioscia’s
body—would potentially obtain a DNA profile that
matched Mr. Cowels or Mr. Mims. Just as the
Commonwealth regarded the Condom as containing
potentially inculpatory perpetrator evidence when it
was collected in 1993, the Commonwealth continued
to regard the Condom as containing potentially inculpatory perpetrator evidence when it submitted
the Swabs for DNA testing 22 years later.
The Commonwealth’s DNA testing of the Swabs
obtained the Profile. Pet. App. 5a. The Profile does
not match the DNA profile of either Petitioner. Id.

8
D. The State Trial Court Ordered The
Commonwealth To Upload The Profile To
CODIS.
CODIS is a software system and DNA profile database that operates at the local, state, and national
levels. CODIS can be used to compare—and match—
unidentified DNA profiles, including those obtained
from crime scene evidence, with DNA profiles of
known individuals. Pet. App. 3a. The Massachusetts state-level database (SDIS) contains about
150,000 DNA profiles, while the national-level database (NDIS) contains more than 18 million.1
After Petitioners learned that the Commonwealth
had obtained the Profile, they requested that the
Commonwealth upload it to CODIS to permit comparison to DNA profiles of known individuals. Petitioners, who have always maintained their innocence, believe that the Profile may match the true
perpetrator of Ms. Miscioscia’s murder.
The Commonwealth refused Petitioners’ request.
But the state trial court, concerned about Petitioners
being denied access to potentially exculpatory evidence, ordered the Commonwealth to upload the Profile to CODIS. Pet. App. 6a. The Commonwealth up-

See
FBI,
CODIS-NDIS
Statistics,
https://www.fbi.gov/services/laboratory/biometricanalysis/codis/ndis-statistics (last accessed December
20, 2019).
1

9
loaded the Profile to the Massachusetts SDIS but no
match was found.
E.

The FBI Determined That The Profile
Was Ineligible For Upload To NDIS.

The Commonwealth then refused to request that
the FBI upload the Profile to NDIS but eventually
agreed to do so in light of the state court order.
When the Commonwealth eventually made its reluctant request, it informed the FBI that it nonetheless
viewed the Profile as “ineligible for SDIS and NDIS.”
C.A. J.A. 208.
According to the FBI’s written ineligibility determination, in connection with the request, the Commonwealth provided the FBI with four documents
relating to the Profile. Noticeably, and erroneously,
absent from the documents provided was: (1) any
documentary evidence indicating that the source of
the Profile was swabs of seminal fluid found inside
the Condom; and (2) any mention of the fact that
Commonwealth had viewed the Condom as evidence
connected to Ms. Miscioscia’s murder from the time
it was collected at the crime scene in 1993 until DNA
testing in 2015 revealed that the Condom was not
linked to Petitioners. Such omissions indicate that
the production was biased and tilted toward obtaining a predetermined result.
Beyond these material omissions, what the Commonwealth provided to the FBI was flawed. For example, the provided affidavit of a State Police crime
laboratory technician opined that because Ms. Miscioscia’s DNA was not found “on” the Condom, the

10
Condom was insufficiently linked to Ms. Miscioscia’s
murder to support the upload of the Profile to
CODIS. C.A. J.A. 200-201. The technician apparently did not understand that the outside of the Condom
had not been tested for DNA and that the relevant
DNA testing was limited to the testing of the Swabs.
Based on the limited, clearly erroneous, and biased
information provided by the Commonwealth, the FBI
determined that the Profile was ineligible for upload
to NDIS pursuant to the NDIS Manual, which provides in relevant part that an unknown DNA profile
must be “attributable to a putative perpetrator,” or,
in other words, sufficiently connected to the crime.
Pet. App. 30a-32a. In its written ineligibility determination, the FBI stated that “for a DNA profile to
be eligible for upload [to NDIS] . . . it must originate
from and/or be associated with a crime scene and be
attributable to a putative perpetrator.” Id. at 31a.
The FBI determined that “nothing forensically
demonstrates a link between the victim and the subject condom to consider the obtained profile as coming from a putative perpetrator.” Id. The FBI also
observed that State Police notes from 1993 stated
that the Condom had been found “covered with sawdust, dirt, dried vegetation etc. breaking apart.”2 Id.
(emphasis omitted). The FBI concluded that “[t]here

It is unsurprising that the Condom was discovered in this condition, as both it and Ms. Miscioscia’s
body were found outdoors on a loading dock behind a
woodworking shop. Pet. App. 4a.
2

11
is no indication . . . that the condom was forensically
connected to the victim (no alleles, partial or full profile[,] reported as would be expected had the condom
come in contact with the victim).” Id. at 30a.
The FBI’s ineligibility determination did not
acknowledge or address the facts that: (1) the Profile
was obtained from DNA testing not of the Condom
itself but of swabs taken of seminal fluid inside the
Condom; and (2) the outside of the Condom has never been tested for DNA. Moreover, it is also clear
that the FBI failed to investigate, or even ask about,
the Commonwealth’s limited production of materials
or its erroneous understanding of the record.
F.

Proceedings Below.

1. On March 26, 2018, Petitioners filed a complaint
for declaratory and injunctive relief in the district
court. Petitioners alleged, among other things, that
the FBI’s ineligibility determination was arbitrary
and capricious, and therefore should be set aside
pursuant to the APA.
2. On August 7, 2018, the district court granted
Respondents’ motion to dismiss. Pet. App. 15a-29a.
The district court concluded that Petitioners lacked
standing to bring their APA claim because the relevant portions of the DNA Identification Act of 1994
(the “DNA Act”), 34 U.S.C. § 12591 et seq., pursuant
to which CODIS was established, “exude[] deference
to the FBI” and “foreclose[] the application of any
meaningful judicial standard of review” of the FBI’s
ineligibility determination. Id. at 23a (internal quotation marks and alteration omitted).

12
3. On appeal, the First Circuit assumed that the
FBI’s ineligibility decision was subject to judicial review. Pet. App. 10a. The First Circuit observed that
“[a]n agency action is arbitrary and capricious if the
agency ‘relied on improper factors, failed to consider
pertinent aspects of the problem, [or] offered a rationale contradicting the evidence before it . . . .’” Id.
at 10a-11a (quoting Bos. Redevelopment Auth. v.
Nat’l Park Serv., 838 F.3d 42, 47 (1st Cir. 2016)).
And the First Circuit acknowledged that “[s]ome of
the language in the FBI’s written explanation of its
eligibility determination . . . suggest[s] that the [FBI]
was not fully attuned to the distinction between the
DNA testing of the swab from the inside of the condom and testing of the outside of the condom, which
was never performed.” Id. at 13a (emphasis added).
But despite acknowledging the FBI’s clearly erroneous understanding of the facts before it, the First
Circuit held that the FBI’s ineligibility determination was not arbitrary and capricious. Pet. App. 10a14a. The First Circuit concluded that “the FBI’s entire explanation makes reasonably clear that the
agency’s focus was on the absence of any DNA connection in the record between the condom and the
victim . . . rather than on a misguided understanding
that testing had definitively established that the
condom had never come into contact with the victim.”
Id. at 13a-14a. Of course, the “absence of any DNA
connection . . . between the condom and the victim” is
best explained by the fact that the Condom has never
been tested for Ms. Miscioscia’s DNA.

13
REASONS FOR GRANTING THE WRIT
I.

The Decision Below Is Contrary To This
Court’s Precedent.
A.

The First Circuit’s Decision Is Contrary
To This Court’s Precedent Regarding
Arbitrary
And
Capricious
Agency
Determinations.

The First Circuit allowed the FBI’s ineligibility determination to stand even though the First Circuit
recognized that the determination reflected a fundamental misunderstanding of the record before the
FBI. The First Circuit’s decision is thus contrary to
this Court’s precedent.
1. Under the APA, a reviewing court must declare
unlawful, and set aside, agency action that is arbitrary and capricious. 5 U.S.C. § 706(2)(A). Judicial
review of agency decision-making under the APA’s
arbitrary and capricious standard is “narrow.” State
Farm, 463 U.S. at 43. “But courts retain a role, and
an important one, in ensuring that agencies have engaged in reasoned decisionmaking.” Judulang v.
Holder, 565 U.S. 42, 53 (2011).
“When reviewing an agency action, [a court] must
assess, among other matters, ‘whether the decision
was based on a consideration of the relevant factors
and whether there has been a clear error of judgment.’” Judulang, 565 U.S. at 53 (quoting State
Farm, 463 U.S. at 43). “[T]he agency must examine
the relevant data and articulate a satisfactory explanation for its action including a ‘rational connection

14
between the facts found and the choice made.’” State
Farm, 463 U.S. at 43 (quoting Burlington Truck
Lines v. United States, 371 U.S. 156, 168 (1962)).
Under this standard, agency action is arbitrary and
capricious if the agency “entirely failed to consider
an important aspect of the problem” or “offered an
explanation for its decision that runs counter to the
evidence before the agency . . . .” Id. Further, courts
“‘may not supply a reasoned basis for the agency’s
action that the agency itself has not given.’” Id.
(quoting SEC v. Chenery Corp., 332 U.S. 194, 196
(1947)).
Under these well-established principles, the FBI’s
ineligibility determination is arbitrary and capricious. The FBI determined that the Profile is ineligible for upload to NDIS because of the lack of a “forensic nexus between Ms. Belinda Miscioscia and the
condom to establish a putative perpetrator for the
crime.” Pet. App. 31a. The FBI based this finding on
the absence of Ms. Miscioscia’s DNA on the Condom,
“as would be expected had the condom come in contact with the victim.” Id. at 30a. But the Profile
came from DNA testing of the Swabs of seminal fluid
found inside the Condom. The outside of the Condom has not been tested for DNA. In other words,
the FBI’s ineligibility determination was based on a
fundamental misunderstanding of the DNA testing
performed in connection with the Condom.
The FBI’s misunderstanding was, in part, the result of the FBI’s failure to conduct its own investigation. For instance, the FBI never considered the trial
testimony of the forensic scientist who collected the
Condom from the crime scene and created the Swabs

15
from which the Profile was obtained. See C.A. J.A.
260-262.
By basing its ineligibility determination on a fundamentally flawed understanding of the evidence before it, the FBI failed to consider “the relevant factors.” See Judulang, 565 U.S. at 53 (quoting State
Farm, 463 U.S. at 43). By failing to examine the trial testimony of the forensic scientist who created the
Swabs from which the Profile was obtained, the FBI
failed to “examine the relevant data.” See State
Farm, 463 U.S. at 43. And by incorrectly assuming
that the DNA testing that had been performed would
have revealed any forensic connection between Ms.
Miscioscia and the Condom, the FBI “entirely failed
to consider an important aspect of the problem.” See
id. The FBI’s ineligibility determination was, therefore, arbitrary and capricious, and must be set aside.
See, e.g., Judulang, 565 U.S. at 53 (agency decision
arbitrary and capricious when agency relied on “irrelevant” factor); State Farm, 463 U.S. at 46-51
(agency decision arbitrary and capricious when agency “gave no consideration” to important aspects of
the problem and “dismiss[ed]” crucial evidence in the
administrative record).
B.

The First Circuit’s Decision is Contrary
to This Court’s Precedent Regarding
Agency Determinations Resting On A
Pretextual Basis.

Independent of its erroneous de novo finding that
the FBI’s ineligibility determination was not arbitrary and capricious, the First Circuit also erred by
disregarding the pretextual nature of the FBI’s de-

16
termination. The First Circuit’s decision is thus contrary to this Court’s decision in Department of Commerce, which held that an agency determination that
rests on a pretextual basis cannot survive judicial
review.
In Department of Commerce, the Secretary of
Commerce had stated publicly that he had decided to
add the citizenship question to the 2020 census “at
the request of the Department of Justice” (“DOJ”),
which allegedly sought improved citizenship data
“for purposes of enforcing the Voting Rights Act”
(“VRA”). 139 S. Ct. at 2562. But the record told a
different story. In reality, it was the Secretary who
had reached out to DOJ. Id. at 2564. And the Secretary convinced DOJ to formally request that the Department of Commerce add the citizenship question.
Id.
Even though it concluded that the Secretary’s decision was not arbitrary or capricious, this Court invalidated the Secretary’s decision as resting on a pretextual basis. The Secretary’s decision to add the citizenship question could not “be adequately explained
in terms of DOJ’s request for improved citizenship
data to better enforce the VRA.” Dep’t of Commerce,
139 S. Ct. at 2575. And the record “reveal[ed] a significant mismatch between the decision the Secretary made and the rationale he provided.” Id. This
Court refused to accept the Secretary’s pretextual
justification for adding the citizenship question, explaining that “[t]he reasoned explanation requirement of administrative law . . . is meant to ensure
that agencies offer genuine justifications for important decisions, reasons that can be scrutinized by

17
courts and the interested public.” Id. at 2575-76.
And as this Court observed, “[a]ccepting contrived
reasons would defeat the purpose of the enterprise.”
Id. at 2576.
The FBI’s ineligibility determination is similarly
pretextual and cannot survive judicial review. See
generally, Dep’t of Commerce, 139 S. Ct. at 2573-76.
It is pretextual because the record before the FBI
was artificially limited to documents provided by a
single interested party and the FBI did not otherwise
undertake its own independent investigation. The
FBI’s ineligibility determination was nothing other
than a pretextual endorsement of the outcome urged
and effectively contrived and dictated by the Commonwealth.
The Commonwealth provided the FBI with all of
the documents that the FBI reviewed in connection
with its ineligibility determination. Those documents failed to include documentary evidence indicating that (1) the Profile had been obtained from
DNA testing of the Swabs taken of seminal fluid inside the Condom; and (2) the outside of the Condom
has never been tested for DNA. In fact, the documents that were provided misleadingly suggested
that DNA testing had been conducted on the outside
of the Condom.
Taking the cues that accompanied the Commonwealth’s court-compelled request, the FBI failed to
conduct its own investigation and instead merely reviewed the incomplete set of documents provided by
the Commonwealth. The FBI’s ineligibility determination did not disclose the control that the Com-

18
monwealth exerted over the FBI’s decision-making
(which became known to Petitioners only in light of
discovery in their ongoing criminal case). For example, the FBI’s ineligibility determination did not disclose the fact that the Commonwealth had told the
FBI that it believed that the Profile was ineligible for
NDIS.
There is “a significant mismatch” between the realities of the FBI’s ineligibility determination and the
written explanation the FBI provided. See Dep’t of
Commerce, 139 S. Ct. at 2575. Because the FBI’s ineligibility determination was contrived and pretextual, it cannot stand.
II.

This Case Is An Appropriate Vehicle To
Address
The
Important
Questions
Presented.

CODIS is intended to serve the search for the
truth, not just the narrow interests of law enforcement. See, e.g., 146 Cong. Rec. H8572–01, H8575H8576 (daily ed. Oct. 2, 2000) (statement of Rep.
Canady) (“The purpose of [CODIS] is to match DNA
samples from crime scenes where there are no suspects with the DNA of convicted offenders. Clearly,
the more samples we have in the system, the greater
the likelihood we will come up with matches and
solve cases.”). That is why the DNA Act specifically
provides that “for criminal defense purposes . . . a defendant . . . shall have access to [NDIS] samples and
analyses performed in connection with the case in
which such defendant is charged.”
34 U.S.C.
§ 12592(b)(3)(c).

19
Robust judicial review of an FBI determination
that a DNA profile is ineligible for upload to NDIS is
critical to ensuring that CODIS continues to serve its
intended purposes. The questions presented by this
petition matter not only to Petitioners but to all current and future criminal defendants in whose cases
an unknown DNA profile is obtained.
The risks associated with arbitrary and capricious
and pretextual agency determinations are highlighted in this case. Here, the Commonwealth viewed the
Condom as relevant evidence for more than 20 years
but suddenly did an about-face as soon as DNA testing showed that the Condom was not inculpatory as
to the Petitioners. The Commonwealth’s change in
position effectively resulted in the FBI refusing to
permit the Profile to be uploaded to NDIS. The result is that Petitioners will face retrial for Ms. Miscioscia’s murder without knowing the identity of the
man whose seminal fluid was in a condom found next
to her body.
Ensuring that the FBI applies the standards set
by the NDIS Manual in a manner that is not arbitrary and capricious, and that the FBI explains its
determinations in a manner that is not pretextual, is
necessary for NDIS to serve its intended purposes,
including providing criminal defendants with access
to critical information. Absent meaningful judicial
review of ineligibility determinations, the FBI’s discretion in making such determinations will go unchecked.
This case also provides an ideal vehicle through
which to address the questions presented because it

20
presents pure legal issues as to which no further factual development is necessary.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
ELLIOT M. WEINSTEIN
83 ATLANTIC AVENUE
BOSTON, MA, 02110
(617) 367-9334
elliot@eweinsteinlaw.com

DAVID J. APFEL
Counsel of Record
DYLAN SCHWEERS
GABRIEL I. ROSSMAN
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
(617) 570-1000
dapfel@goodwinlaw.com
EZEKIEL L. HILL
GOODWIN PROCTER LLP
1900 N. STREET NW
WASHINGTON, DC 20036

December 20, 2019

Counsel for Petitioners

